      Department of Homeland Security





    FEMA Public Assistance Grant Funds Awarded
           to City of Atascadero, California




DS-12-07                                         March 2012

                                                                               Office ofInspector General

                                                                               U.S. Department of Homeland Security
                                                                               Washington, DC 20528




                                                                               Hom.eland
                                                                               Security
                                            MAR 2 0 2012


MEMORANDUM FOR:




FROM:                     '---...-:~=:;;'K~i:Zaerear
                                   Assistant Inspector eneral
                                   Office of Emergency Management Oversight

SUBJECT:                           FEMA Public Assistance Grant Funds Awarded to
                                    City ofAtascadero, California
                                   FEMA Disaster Number 1505-DR-CA
                                   Audit Report Number DS-12-07

We audited public assistance (PA) funds awarded to the City of Atascadero, California (City)
(Public Assistance Identification Number 079-03064-00). Our audit objective was to determine
whether the City accounted for and expended Federal Emergency Management Agency (FEMA)
grant funds according to federal regulations and FEMA guidelines.

The City received a PA award of $26.3 million from the California Emergency Management Agency
(Cal EMA), l a FEMA grantee, for debris removal, emergency protective measures, and permanent
repairs to facilities damaged by the December 22,2003, earthquake. The award provided 75%
FEMA funding for 6 large projects and 13 small projects. 2 The audit covered the period from
December 22,2003, to February 23, 2012, and included a review of three large projects (one of
which was completed) with a total award of $25.9 million, or 99% ofthe total award (see exhibit A).

We conducted this performance audit pursuant to the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based upon our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based upon our audit objective. We
conducted this audit applying the statutes, regulations, and FEMA policies and guidelines in effect at
the time ofthe disaster.

We discussed issues related to this audit with FEMA, Cal EMA, and City officials; reviewed
judgmentally selected project costs (generally based on dollar value); and performed other

I At the time ofthe disaster, the grantee's name was the California Office of Emergency Services, which became a part
of Cal EMA on January 1,2009.
2 Federal regulations in effect at the time of the disaster set the large project threshold at $54,100.
procedures considered necessary to accomplish our objective. We did not assess the adequacy of the
City’s internal controls applicable to grant activities because it was not necessary to accomplish our
audit objective. We did, however, gain an understanding of the City’s method of accounting for
disaster-related costs and its procurement policies and procedures.


                                            RESULTS OF AUDIT

Of the $12,853,623 in project charges we reviewed, City officials did not expend or account for
$8,014,375 (detailed below) according to federal regulations and FEMA guidelines.

                                                                                            Amount
     Finding                                  Subject
                                                                                           Questioned
        A                         Architecture and Engineering                             $2,980,900
        B                         Temporary Relocation                                      2,654,978
        C                         Replacement Building                                      2,377,185
        D                         Project Cost Accounting                                       1,312
       Total                                                                               $8,014,375


Finding A: Architectural and Engineering Costs

City officials plan to claim approximately $4,106,700 in architecture, engineering, and management
(A&E) costs for Project 229. However, A&E expenditures as of June 2010, in the amount of
$2,980,900, are unsupported.

Federal regulations and FEMA guidelines regarding scope of work eligibility and documentation
stipulate that:

        Eligibility to receive federal funds is contingent upon having fiscal controls and accounting
        procedures that permit the tracing of funds sufficiently to establish that they were not used in
        violation of any legal restrictions, and maintaining records to adequately identify the source
        and application of funds provided for financially assisted activities. (44 Code of Federal
        Regulations (CFR) 13.20(a)(2), (b)(2))

        Costs must be adequately documented to be allowable under a federal award. (Office of
        Management and Budget (OMB) Circular A-87, 3 Attachment A; Paragraph C.1.j)

        Work performed must derive from the project’s FEMA-approved scope to be eligible for
        federal funding. (FEMA Public Assistance Guide (FEMA 322), October 1999, pp. 71–73 and
        115–116; and FEMA Public Assistance Applicant Handbook (FEMA 323), September 1999,
        pp. 17, 21–22, 32, and 52)




3
 Office of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local and Indian Tribal
Governments, in effect at the time of the disaster, was relocated to 2 CFR, Part 225, on August 31, 2005.
                                                         2
City officials did not comply with these criteria. They did not segregate costs associated with the
FEMA-approved scope of work from non-FEMA-approved work, nor did records for expenditures
support FEMA eligibility.

We therefore question $2,980,900 as unsupported. City officials agreed that at least $1,490,406
should not be charged to Project 229 and that, at project closeout, they would provide an accurate
accounting of eligible costs to FEMA. FEMA has indicated that it has received corresponding
documentation from the City, and has deemed it insufficient to support A&E costs in relation to the
FEMA-approved scope of work. FEMA has told us that it will continue to work with the City to
determine eligible costs.

Finding B: Temporary Relocation

City officials did not comply with federal rules, regulations, and guidelines for cost-effectiveness
and reasonableness when they requested and received an excessive PA award of $2,654,978 for
Project 239 to renovate, improve, and lease a second relocation facility to use as a temporary City
Hall. The City conducted this transaction on a less-than-arms-length basis; therefore, according to
federal requirements, eligible PA funding for this facility was limited to depreciation costs for the
years the City used it for disaster-related purposes. Further, the number of years for which the
facility is depreciated should have been consistent with the City’s established depreciation
schedule—50 years, in this case. However, the City did not base its charges to Project 239 on
depreciation, but rather on costs incurred for renovation, improvements, and lease payments. As a
result, this option was not the least costly and it unreasonably increased the federal award to the
City.

The following background information details the City’s actions associated with its temporary
relocation:

        In 1986, the Atascadero City Council established the City of Atascadero Community
        Redevelopment Agency (CRA).4 Although the CRA was a separate public body and
        exercised governmental functions, it was a component unit of the City, and the City was
        considered to be financially accountable for it.5

        In February 2002, before the earthquake, the developer of the Creekside Property—a
        property that included a bowling alley that ultimately became the second temporary City Hall
        in 2005—sued the City, alleging that it had significantly damaged the property as a result of
        negligence.




4
  The Atascadero City Council established the CRA pursuant to California’s redevelopment law in 1986. The CRA is a
separate public body and exercises governmental functions, including planning and implementing redevelopment
projects. However, the CRA is a component unit of the City, and the City is considered to be financially accountable for
the CRA. Further, the CRA has an arrangement with the City for services, facilities, and personnel support. The City
Council serves in a separate session as the governing body of the CRA.
5
  In June 2011, the California State Legislature passed legislation that caused the elimination of all redevelopment
agencies in California. In December 2011, the California Supreme Court upheld that legislation.

                                                           3
         In December 2003, following the earthquake that damaged the Atascadero City Hall, City
         officials initially leased and improved a commercial site to which they relocated City Hall
         functions and personnel.

         In August 2004, the City agreed to settle its lawsuit related to the Creekside Property, and
         later assigned its right to purchase the property to the CRA, which completed the purchase in
         December 2004.

         In September 2004, City officials indicated that the repairs to the Atascadero City Hall
         (which FEMA was funding) would not be completed until June 2009, and the City could not
         remain at the initial commercial site serving as the temporary City Hall because the site was
         scheduled for redevelopment.6 Thus, the City requested, and received from FEMA,
         additional PA funding for a second temporary relocation.

         In September 2004, approximately 2 months before the CRA’s purchase of the Creekside
         Property, City officials attested that converting the bowling alley at the property would be the
         most cost-effective and reasonable facility for its second temporary City Hall.
             o City officials responsible for managing the PA funding also held executive-level
                positions on the CRA.
             o The CRA ultimately purchased the Creekside Property for $1.3 million by issuing
                bonds that were, in part, retired with FEMA funds.
             o Because the CRA, instead of the City, purchased the Creekside Property, FEMA was
                prevented from acquiring an equity interest in the property.

         The Creekside Property included a 31,436-square-foot bowling alley that required significant
         gutting, repairs, and other improvements to convert it to an office building that could be used
         as a City Hall.
             o The City used $2.1 million in additional PA funding to renovate and convert the
                 bowling alley into a second temporary City Hall (capital improvements).
             o In addition to requiring substantial work, the bowling alley was approximately three
                 times larger (31,436 square feet vs. 11,946 square feet) and required approximately
                 three times the rental costs of the initial temporary City Hall.

         In May 2005, City officials signed a 4-year lease with the CRA—at a cost of about
         $1.5 million—until June 2009, when they projected that repairs to the Atascadero City Hall
         would be complete.
             o The lease on this second temporary City Hall was about $31,000 per month.
             o The $31,000 per month lease rate is based on market rental rates after it was
                improved using FEMA PA funding.
             o The City used FEMA funding to rent both temporary City Hall sites during the last 7
                months that the second site was being renovated, as well as to purchase and renovate
                the Creekside Property.

         City officials later revised their lease projection from 4 years to 8 years, until June 2013, at a
         total lease cost of about $3 million. FEMA officials approved this additional time and

6
 Before ratifying the lease on the initial temporary City Hall site, City officials were aware that their occupancy could be
of limited duration. The City ended its lease on this facility in December 2005.
                                                             4
           funding extension in April 2011, despite their previous determination that an extension
           beyond October 2010 was not justified, and that costs incurred after that date would not be
           eligible.

           The $3 million in lease payments for the second temporary City Hall exceeded the entire
           purchase price by $1.7 million ($3 million lease payments less $1.3 million Creekside
           Property purchase price). This amount may be greater if FEMA officials approve another
           time and funding extension.7
              o FEMA officials used a 3-year timeframe for completing the restoration of the
                  earthquake-damaged City Hall.
              o However, at the conclusion of our fieldwork—more than 6 years after the
                  earthquake—the City had not started to restore City Hall.
              o In addition to the more than $5.1 million in funding for the lease ($3 million) and
                  improvement ($2.1 million) of the second temporary City Hall, FEMA will fund at
                  least $16 million for the renovation of City Hall.

Federal rules stipulate that when using federal funding for the temporary relocation of facilities as a
result of a disaster:

           FEMA will fund only the least costly option, and the selected facilities must be reasonable,
           cost-effective, and temporary in nature. (FEMA 9523.3, Section 7.D)

           An applicant’s actions cannot unjustifiably increase the federal award’s cost. (OMB A-87;
           Attachment A, Basic Guidelines)

           FEMA is entitled to compensation for real property acquired with grant funds in the form of
           either payment or title. (44 CFR 13.31(c))

           Costs must be necessary and reasonable for proper and efficient performance and
           administration of federal awards. In determining reasonableness of a given cost,
           consideration shall be given to whether the cost is of a type generally recognized as ordinary
           and necessary; the restraints or requirements imposed by such factors as sound business
           practices and arms-length bargaining; whether the individuals concerned acted with prudence
           in the circumstances considering their responsibilities to the governmental unit, its
           employees, the public at large, and the federal government; and significant deviations from
           the established practices of the governmental unit which may unjustifiably increase the
           federal award’s cost. (OMB A-87; Attachment A, Basic Guidelines)

           Rental costs under less-than-arms-length leases are allowable only up to the amount that
           would be allowed had title to the property vested in the governmental unit and/or the
           governmental unit continued to own the property. For this purpose, a less-than-arms-length
           lease is one under which one party to the lease agreement is able to control or substantially
           influence the actions of the other. Such leases include, but are not limited to, those between
           divisions of a governmental unit or governmental units under common control through
           common officers, directors, or members. (OMB A-87, Attachment B, Section 38.c)


7
    FEMA has already approved three time and funding extensions, through June 2009, October 2010, and June 2013.
                                                           5
           Eligible costs under less-than-arms-length leases would include depreciation, but (per FEMA
           criteria) not utilities, maintenance, or operating costs. (OMB A-87, Attachment B, Section
           38(b) and (c)8 and FEMA 9523.3, p. 3)

City officials did not comply with these requirements. The way they structured the transaction
unjustifiably increased the federal award’s cost and precluded FEMA from funding the least costly
option. Specifically:

           The federal government did not receive its entitlement to equity compensation. City
           officials, by arranging for the CRA instead of the City itself to purchase the property,
           circumvented federal regulations by not providing entitlement to FEMA to accrue equity in
           the property. As a result, the CRA was the singular owner of the property and retained all
           equity.

           This transaction was less-than-arms-length because the same City officials with
           responsibility to manage FEMA’s disaster assistance funding were executive officers of the
           CRA, thus creating a conflict of interest (see below).

                           Examples of Overlapping City and CRA Positions
                       CRA Position                        City Position
                     Executive Director                    City Manager
                                                           Staff Member
                  Deputy Executive Director
                                              (as assigned by the Executive Director)
                          Secretary                         City Clerk
                         Treasurer                       Finance Director

           As a result of this overlap, the transaction lacked independence because City officials were
           able to substantially influence or control the actions associated with the transaction. Costs
           incurred under less-than-arms-length transactions are eligible for federal disaster assistance
           funding only on a limited basis.

           Less-than-arms-length transactions are allowable only up to the amount that would be
           allowed had title to the property vested in the governmental unit and/or the governmental unit
           continued to own the property. Because City officials precluded vesting in the government
           the title to the property, the City is eligible to receive PA funding for only a limited amount
           of depreciation of the property/facility. This depreciation should be based on the 50-year
           schedule City officials assigned, and only for those years that the City used the property for
           disaster-related purposes. FEMA officials, despite their previous determination(s), ultimately
           permitted this period to be extended from June 2005 to June 2013.

Because the City enabled the CRA to purchase the Creekside Property, FEMA was prevented from
acquiring an equity interest in the property, even though FEMA had indirectly funded its purchase
and renovation. Moreover, this created a less-than-arms-length transaction because the same senior
City officials responsible for managing FEMA’s disaster assistance funding were executive officers
of the CRA. Therefore, consistent with federal regulations governing rental costs involving less-
than-arms-length transactions, we determined that depreciation is the least costly option for FEMA.

8
    For subsequent versions of OMB A-87, Attachment B, please see Section 37(b) and (c).
                                                           6
Consequently, we calculated the depreciation costs and prorated them based on the City’s 50-year
depreciation schedule, and determined that $364,923 was eligible for PA funding (see exhibit B).
Because the City received a $3,019,901 award in PA funding for lease payments for the second
temporary City Hall, we question $2,654,978 ($3,019,901 less $364,923) as excessive and therefore
ineligible. City officials disagreed with our finding on the basis that FEMA’s funding of the second
temporary City Hall implied concurrence with their actions.

Finding C: Replacement Building

City officials improperly claimed $2,377,185 to Project 228 to replace its Printery Building
(Building), a building that the Masonic Association deeded to the City for use as a recreational/youth
center and rental space.9 This occurred because FEMA officials’ estimates and calculations were
based on inaccurate documentation presented to FEMA by City officials.

Specifically, City officials provided documentation to FEMA that indicated that the Building was
fully occupied at the time of the earthquake. Based on that representation, and FEMA’s policies
concerning when to repair vs. replace a damaged building, FEMA determined that it would be cost-
effective to replace instead of repair the Building. In reality, however, the Building was not
completely in active use at the time of the earthquake, nor did the City have any evidence for how it
intended to reoccupy the vacant portions of the Building.

Federal regulations at 44 CFR 206.226(k)(2) stipulate that facilities that were not in active use at the
time of the disaster are eligible for federal disaster assistance only when—

        The facilities were temporarily inoperative for repairs or remodeling;

        Active use by the applicant was firmly established in an approved budget; or

        The owner can demonstrate to FEMA’s satisfaction intent to begin use within a reasonable
        time.

Further, FEMA’s Public Assistance Guide (FEMA 322, October 1999, pp. 20–21) requires that
disaster assistance be prorated according to the percentage of the facility that was in active use at the
time of a disaster.

The City did not meet these criteria. City records regarding predisaster use and future plans
indicated that at the time of the earthquake—

        Only 82% of the Building was occupied:
           o 15,529 of the total 18,887 square feet were in active use.

        The remaining 18% of the Building was vacant and inactive:


9
  The Masonic Association deeded ownership of the Printery Building to the City, while retaining a 1% interest in the
Building that provided exclusive use of space within the Building. The Building usage was solely conveyed to the City
as a youth center; however, the agreement allowed the City to rent space in the Building to help defray costs. The
official purpose of the Building, as conveyed in corresponding legal documents, is “Recreational Center”; however,
reference to the Building in City documents frequently appeared as “Youth Center.”
                                                          7
             o A business vacated the 2,062 square feet that it leased in the Building in February
               2003; and
             o A charitable organization vacated the 1,296 square feet of City-donated space in
               November 2003, after it learned of the City’s intention to return the Building to the
               Masonic Association.

         The City had no future plans or intentions to reoccupy the Building:
            o In 1999, the City decided to abandon efforts to renovate the Building as a youth
                center—the Building’s original purpose—because the City’s Park and Recreation
                Committee recognized that the City could not address the deteriorated condition of
                the Building nor upgrade the structure to meet necessary codes.
            o In 2001, the City received a State grant earmarked for the purchase of a property to be
                used specifically for a youth center.
            o In June 2001, the City purchased and renovated a property, which began operations as
                the new youth/community center.
            o In August 2003, prior to the earthquake, and in response to a June 2003 request from
                the Masonic Association, the City Council voted to return the Building to the
                Masonic Association.10
            o In September 2004, the City Council unanimously affirmed its August 2003 decision
                to return the significantly damaged Building to the Masonic Association. It did this
                while unanimously deciding to accept FEMA funding—specifically provided for the
                replacement of the Building—to build a youth center elsewhere.

FEMA officials did not meet federal criteria in accurately prorating disaster assistance based on the
percentage of the Building that was in active use. FEMA officials used a calculation known as the
50 Percent Rule,11 which requires them to consider a facility repairable or not repairable (i.e.,
requiring complete replacement of the facility) based on the estimated repair costs relative to 50% of
the estimated replacement cost of the facility. If the damages amount to less than 50% of the cost to
replace the building, then repairs on the disaster-related damages should be performed. If the cost to
repair the building exceeds 50% of the cost to replace it, FEMA will obligate funding to completely
replace the building.12

In calculating this percentage for the Printery Building, FEMA officials considered the Building
fully occupied as a result of relying on inaccurate information presented by the City to FEMA—via
the City-commissioned architectural engineering report of September 2004—which indicated that
the first floor of the building was fully leased and occupied at the time of the earthquake.
Consequently, FEMA estimated repair costs at $937,103 for the entire building. FEMA then
determined the replacement cost of the entire building using construction costs data, 13 and estimated

10
   The City’s Staff Report, dated August 12, 2003, indicated that—as a result of deferred maintenance—the Building
required substantial repairs and renovations, as well as seismic reinforcement. The City was not able to obtain the
funding needed to address these issues, thus impacting the Building’s continued use and utility.
11
   FEMA Disaster Assistance Policy 9524.4, Eligibility of Facilities for Replacement under 44 CFR 206.226(d)(1),
September 24, 1998.
12
   The 50 Percent Rule is outlined in 44 CFR 206.226(f) and the FEMA Public Assistance Guide (FEMA 322, October
1999, pp. 28–31).
13
   FEMA calculated construction costs using RSMeans. RSMeans, a product line of Reed Construction Data, is a
supplier of construction cost information for North America. RSMeans provides accurate and up-to-date cost
information that helps owners, developers, architects, engineers, contractors and others to project the cost of building
construction and renovation projects.
                                                            8
replacement costs at $1,848,092. Thus, the estimated repair cost of $937,103 for the entire Building
represented 51% of the $1,848,092 estimated replacement cost. Specifically, the $1,848,092 in
estimated replacement costs becomes Part A in FEMA’s Cost Estimating Format (CEF). 14 Further,
FEMA policy states that the City would be eligible for additional “soft costs” (such as engineering
and design costs), as calculated by the CEF, Parts B through H; in this case, $2,202,928. Therefore,
unaware of the Building’s actual active use, FEMA erroneously determined that it was more cost-
effective to replace the Building than to repair it, and funded the project with a total adjusted
replacement cost of $4,051,020 ($1,848,092 plus $2,202,928).

If FEMA had correctly applied the 50 Percent Rule, the decision would have been to fund 82% of
the cost to repair the Building to its predisaster condition, rather than to fund 100% of the cost to
replace it. We estimate that this miscalculation cost FEMA $2,377,185 as follows—

         Prorating costs to repair the Building based on the portion of the Building in active use at the
         time of the earthquake (82.22% of $937,103 = $770,486);

         Dividing repair costs by the replacement costs of the Building, to determine that the facility’s
         disaster damages were less than 50%, and therefore ineligible for replacement ($770,486
         divided by $1,848,092 = 41.69%);

         Adding the prorated cost to repair the Building (CEF Part A) to the additional reimbursable
         costs (CEF Parts B–H) to calculate the total eligible repair costs for the 82% of the Building
         that was occupied before the earthquake ($770,486 plus $903,349 = $1,673,835); and

         Subtracting the eligible repair costs from FEMA’s approved replacement amount to
         determine the excessive, ineligible funding amount ($4,051,020 less $1,673,835 =
         $2,377,185).

We therefore question $2,377,185 in ineligible, excessive costs. City officials agreed that the Building
was not fully occupied at the time of the earthquake and that there was no intent to reoccupy. FEMA
was unaware that a portion of the Building was not in active use at the time of the earthquake.

Finding D: Project Cost Accounting

City officials mistakenly charged $1,312 in disaster costs to Project 228 that were intended for
Project 229. According to 44 CFR 13.20(a)(2), the City is required to have fiscal controls and
accounting procedures that permit the tracing of funds to a level of expenditures adequate to
establish that such funds have not been used in violation of the restrictions and prohibitions of
applicable statutes.

Because the City charged unrelated costs to Project 228, we question $1,312 as ineligible. City
officials agreed that these costs are unrelated to the FEMA-approved scope of work for Project 228
and said that they would adjust the charges to correct the error.
14
  The CEF is a uniform method of estimating costs incurred across the entire spectrum of eligible work for large
projects. It is a forward-pricing methodology that applies to all types of infrastructure damages resulting from a major
disaster, and provides an estimate of the total eligible funding at the beginning of the project. Pages 19 and 20 of the
Cost Estimating Format for Large Project Instructional Guide (Version 2, 1998) explain how the CEF applies to the
50 Percent Rule calculations.
                                                            9
                                      RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region IX, in coordination with Cal EMA:

Recommendation #1: Disallow $2,980,900 ($2,235,675 federal share) in unsupported A&E costs
associated with Project 229 (finding A).

Recommendation #2: Disallow $2,654,978 ($1,991,234 federal share) in ineligible, excessive
funding associated with the Creekside Property/second temporary City Hall for Project 239
(finding B).

Recommendation #3: Disallow $2,377,185 ($1,782,889 federal share) in ineligible facility
replacement costs related to the Printery Building for Project 228 (finding C).

Recommendation #4: Disallow $1,312 ($984 federal share) in ineligible costs for Project 228
(finding D).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with City officials during our audit, and included their
comments in this report, as appropriate. We provided written summaries of our findings and
recommendations in advance to City, FEMA, and Cal EMA officials on January 31, 2011, and
discussed them at exit conferences held with the City on February 15, 2011, FEMA on February 17,
2011, and Cal EMA on June 10, 2011. We also provided these officials updates to our findings,
when applicable, and met with FEMA on February 23, 2012, to address FEMA’s continued efforts at
determining eligible costs pertaining to the findings in this report. City officials partially concurred
with findings A and C, did not concur with finding B, and concurred with finding D. FEMA and Cal
EMA officials withheld comment until after we issue our final report.

Within 90 days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the recommendation.
Until your response is received and evaluated, the recommendations will be considered open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. We will post the report to our website for public
dissemination. Significant contributors to this report were Humberto Melara, Devin Polster, Curtis
Johnson, and Arona Maiava.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.

                                                  10

cc: 	   Audit Liaison, FEMA Region IX
        Administrator, FEMA
        Audit Liaison, FEMA (Job Code G-10-045)
        Audit Liaison, DHS




                                             11
                                                                                                       EXHIBIT A 

                                        Schedule of Projects Audited 

                                   December 22, 2003, to February 23, 2012 

                                       City of Atascadero, California 

                                    FEMA Disaster Number 1505-DR-CA 


                                                                       Costs Questioned
                Project                                     Temporary                     Project
 Project                        Project                                   Replacement
                Award                           A&E          Relocation                     Cost
 Number                         Charges                                      Building                        Total
                Amount                       (Finding A)      Facility                  Accounting
                                                                           (Finding C)
                                                            (Finding B)                 (Finding D)
      228       $4,204,626     $4,199,393                                    $2,377,185      $1,312       $2,378,497
      229       15,982,956     3,691,34415    $2,980,900                                                   2,980,900
      239        5,756,164       4,962,886                      $2,654,978                                 2,654,978
     Totals:   $25,943,746    $12,853,623     $2,980,900        $2,654,978   $2,377,185          $1,312   $8,014,375




                                                                                                       EXHIBIT B
                             Depreciation Schedule and Eligible Costs: Project 239

                                        City of Atascadero, California 

                                    FEMA Disaster Number 1505-DR-CA 


         Property Costs and Depreciation Schedule Based on the City-Assigned 50-Year Life Cycle
                                                                                      Total
                                                   Fiscal Year
                                                                    Annual        Depreciation
                  Description            Cost     (FY) Start of
                                                                 Depreciation    Through June
                                                  Depreciation
                                                                                      2013
          Initial Property Acquired    $751,985       2006            $15,040          $120,317
       FY 05 Lease Make-Ready Work       278,916      2006               5,578            44,627
       FY 06 Lease Make-Ready Work       486,955      2006               9,739            77,913
            Stabilize Creek Bank         999,974      2008              19,999           119,997
          Landscape and Irrigation        17,240      2008                 345             2,069
                    Totals:           $2,535,070                      $50,701          $364,923




15
  This number represents project charges as of June 30, 2010. The City had not started any permanent repair work as of
October 29, 2010. Therefore, more than $11.7 million in project funding for permanent repair and hazard mitigation
remains unused.
                                                           12
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
